Department of Health and Human Services
                  OFFICE OF
             INSPECTOR GENERAL



    NORIDIAN HEALTHCARE
      SOLUTIONS, LLC,
      UNDERSTATED ITS
     MEDICARE SEGMENT
  POSTRETIREMENT BENEFIT
 ASSETS AS OF JANUARY 1, 2011


   Inquiries about this report may be addressed to the Office of Public Affairs at
                            Public.Affairs@oig.hhs.gov.




                                                Gloria L. Jarmon
                                             Deputy Inspector General

                                                     March 2014
                                                    A-07-13-00420
                           Office of Inspector General
                                        https://oig.hhs.gov/


The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections

The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations

The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General

The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                              Notices


       THIS REPORT IS AVAILABLE TO THE PUBLIC
                 at https://oig.hhs.gov

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post
its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

The designation of financial or management practices as questionable,
a recommendation for the disallowance of costs incurred or claimed,
and any other conclusions and recommendations in this report represent
the findings and opinions of OAS. Authorized officials of the HHS
operating divisions will make final determination on these matters.
                                      EXECUTIVE SUMMARY

 Noridian Healthcare Solutions, LLC, a Medicare contractor, understated the Medicare
 segment postretirement benefit plan assets by $1.1 million as of January 1, 2011.

WHY WE DID THIS REVIEW

The Centers for Medicare & Medicaid Services (CMS) reimburses a portion of contractors’ costs
for postretirement benefit (PRB) plans. In claiming these costs, contractors must follow cost
reimbursement principles contained in the Federal Acquisition Regulation and applicable Cost
Accounting Standards (CAS). Noridian Healthcare Solutions, LLC (NHS), elected to use
segmented accrual accounting for its PRB plans.

We used the Medicare contracts’ pension segmentation requirements as authoritative guidance.
The fiscal intermediary and carrier contracts require that the pension assets be allocated to each
Medicare segment and adjusted in accordance with CAS 413. In turn, CAS 413 requires these
contractors to update the pension assets with contributions, permitted unfunded accruals, income,
benefit payments (claims paid), participant transfers, and administrative expenses. These PRB
assets are calculated by the contractors’ actuarial consulting firms and are usually included as
CAS exhibits in the contractors’ PRB plan actuarial valuation reports. The Medicare segment
PRB assets are integral to calculating the allowable Medicare PRB costs.

Previous Office of Inspector General reviews found that Medicare contractors did not always
correctly identify and update the Medicare segment PRB assets. Specifically, our prior PRB
segmentation audit of Noridian Mutual Insurance Company (NMIC) (A-07-08-00280) found that
NMIC did not correctly identify and update its Medicare segment PRB assets.

The objectives for this review were to determine whether NHS complied with Federal
requirements when (1) implementing the prior audit recommendation to increase the Medicare
segment PRB assets as of January 1, 2006, and (2) updating the Medicare segment’s PRB assets
with contributions, permitted unfunded accruals, income, claims paid, participant transfers, and
administrative expenses in its CAS exhibits from January 1, 2006, to January 1, 2011.

BACKGROUND

During our audit period, NHS, formerly called Noridian Administrative Services, LLC (NAS),
was a subsidiary of NMIC, whose home office was and is in Fargo, North Dakota. NHS
administered Medicare Parts A and B and Durable Medical Equipment operations under cost
reimbursement contracts with CMS. With the implementation of Medicare contracting reform,
NHS continued administering these Medicare operations after receiving the Medicare
administrative contractor (MAC) contracts for Jurisdictions D and 3, effective June 30, 2006, and
July 31, 2006, respectively. During our audit period, NHS administered both fiscal intermediary
and carrier contracts and MAC-related contracts.




Noridian Healthcare Solutions, LLC, Postretirement Benefit Segmentation (A-07-13-00420)            i
Also, effective May 13, 2013, NAS changed its name to NHS. Although we have addressed our
report to NMIC, we will associate the term NHS with our findings and recommendations
regarding the Medicare segment PRB assets.

NHS participates in a voluntary employee benefit association trust to fund annual PRB accruals.
Furthermore, NHS’s accounting practice, approved by CMS, uses segmented accrual accounting
for its PRB plans.

Our prior PRB segmentation audit (A-07-08-00280, issued August 24, 2009) updated the
Medicare segment PRB assets as of January 1, 2006. We recommended that NMIC increase its
Medicare segment pension assets by $2,384,465 and, as a result, recognize $7,843,111 as the
Medicare segment PRB assets as of January 1, 2006, in its CAS exhibits.

WHAT WE FOUND

NHS implemented our prior audit recommendation to recognize $7,843,111 as the Medicare
segment PRB assets as of January 1, 2006, in its CAS exhibits.

Regarding our second objective, NHS identified Medicare segment PRB assets of $19,009,033
as of January 1, 2011; however, we determined that the Medicare segment PRB assets were
$20,096,041. Therefore, NHS understated the Medicare segment PRB assets by $1,087,008.
NHS understated the Medicare segment PRB assets because it incorrectly identified Medicare
segment participants and, therefore, incorrectly identified the Medicare segment contributions
and prepayment credits. In addition, NHS lacked controls to ensure that it calculated those assets
in accordance with Federal requirements and the pension segmentation language of its Medicare
contracts when updating the Medicare segment PRB assets for January 1, 2006, through
January 1, 2011.

WHAT WE RECOMMEND

We recommend that NHS:

    •    increase its Medicare segment PRB assets as of January 1, 2011, by $1,087,008 and
         recognize $20,096,041 as the Medicare segment PRB assets and

    •    establish controls to ensure compliance with Federal regulations and the Medicare
         contracts’ pension segmentation requirements when updating the Medicare segment PRB
         assets with contributions, income, claims paid, and expenses.




Noridian Healthcare Solutions, LLC, Postretirement Benefit Segmentation (A-07-13-00420)         ii
AUDITEE COMMENTS

In written comments on our draft report, NHS concurred with our recommendations and said that
it would increase the Medicare segment PRB assets by $1,087,008 and that it would recognize
$20,096,041 as the Medicare segment PRB assets as of January 1, 2011. NHS also said that it
would ensure that individuals are properly identified to the Medicare segments, that individuals
are properly accounted for in transfers and benefit payments, and that the Medicare segment’s
assets are updated.




Noridian Healthcare Solutions, LLC, Postretirement Benefit Segmentation (A-07-13-00420)       iii
                                                    TABLE OF CONTENTS


INTRODUCTION ................................................................................................................... 1

           Why We Did This Review ........................................................................................... 1

           Objectives .................................................................................................................... 1

           Background .................................................................................................................. 1

           How We Conducted This Review................................................................................ 2

FINDINGS ............................................................................................................................... 2

           Noridian Healthcare Solutions, LLC, Implemented
            Our Prior Audit Recommendation ............................................................................ 3

           Update of Medicare Segment Postretirement Benefit Assets ...................................... 3
                 Contributions and Transferred Prepayment Credits Understated .................... 3
                 Claims Paid Understated .................................................................................. 4
                 Investment Earnings (Net of Expenses) Understated ...................................... 4

RECOMMENDATIONS ......................................................................................................... 5

AUDITEE COMMENTS......................................................................................................... 5

APPENDIXES

    A: Audit Scope and Methodology .................................................................................... 6

    B: Noridian Healthcare Solutions, LLC,
       Statement of Market Value of Postretirement Benefit Plan
       Assets for the Period January 1, 2006, to January 1, 2011 .......................................... 8

    C: Federal Requirements Related to
       Postretirement Benefit Segmentation .......................................................................... 10

    D: Auditee Comments ...................................................................................................... 11




Noridian Healthcare Solutions, LLC, Postretirement Benefit Segmentation (A-07-13-00420)                                                        iv
                                               INTRODUCTION

WHY WE DID THIS REVIEW

The Centers for Medicare & Medicaid Services (CMS) reimburses a portion of contractors’ costs
for postretirement benefit (PRB) plans. In claiming these costs, contractors must follow cost
reimbursement principles contained in the Federal Acquisition Regulation (FAR) and applicable
Cost Accounting Standards (CAS). Noridian Healthcare Solutions, LLC (NHS), elected to use
segmented accrual accounting for its PRB plans.

We used the Medicare contracts’ pension segmentation requirements as authoritative guidance.
The fiscal intermediary and carrier contracts require that the pension assets be allocated to each
Medicare segment and adjusted in accordance with CAS 413. In turn, CAS 413 requires these
contractors to update the pension assets with contributions, permitted unfunded accruals, income,
benefit payments (claims paid), participant transfers, and administrative expenses. These PRB
assets are calculated by the contractors’ actuarial consulting firms and are usually included as
CAS exhibits in the contractors’ PRB plan actuarial valuation reports. The Medicare segment
PRB assets are integral to calculating the allowable Medicare PRB costs.

Previous Office of Inspector General reviews found that Medicare contractors did not always
correctly identify and update the Medicare segment PRB assets. Specifically, our prior PRB
segmentation audit of Noridian Mutual Insurance Company (NMIC) (A-07-08-00280, issued
August 24, 2009) found that NMIC did not correctly identify and update its Medicare segment
PRB assets.

OBJECTIVES

Our objectives were to determine whether NHS complied with Federal requirements when
(1) implementing the prior audit recommendation to increase the Medicare segment PRB assets
as of January 1, 2006, and (2) updating the Medicare segment’s PRB assets with contributions,
permitted unfunded accruals, income, claims paid, participant transfers, and administrative
expenses in its CAS exhibits from January 1, 2006, to January 1, 2011.

BACKGROUND

During our audit period, NHS, formerly called Noridian Administrative Services, LLC (NAS),
was a subsidiary of NMIC, whose home office was and is in Fargo, North Dakota. NHS
administered Medicare Parts A and B and Durable Medical Equipment (DME) operations under
cost reimbursement contracts with CMS. With the implementation of Medicare contracting
reform, NHS continued administering these Medicare operations after receiving the Medicare
administrative contractor (MAC) contracts 1 for Jurisdictions D and 3, effective June 30, 2006,

1
  Section 911 of the Medicare Prescription Drug, Improvement, and Modernization Act of 2003, P. L. No. 108-173,
required CMS to transfer the functions of fiscal intermediaries and carriers to MACs between October 2005 and
October 2011. Most, but not all, of the MACs are fully operational; for jurisdictions where the MACs are not fully
operational, the fiscal intermediaries and carriers continue to process claims. For purposes of this report, the terms
“Medicare contractor” and “MAC” mean the fiscal intermediary, carrier, or MAC, whichever is applicable.

Noridian Healthcare Solutions, LLC, Postretirement Benefit Segmentation (A-07-13-00420)                                  1
and July 31, 2006, respectively. 2, 3 During our audit period, NHS administered both fiscal
intermediary and carrier contracts and MAC-related contracts.

Also, effective May 13, 2013, NAS changed its name to NHS. Although we have addressed our
report to NMIC, we will associate the term NHS with our findings and recommendations
regarding the Medicare segment PRB assets.

NHS participates in a voluntary employee benefit association (VEBA) trust for the purpose of
funding annual PRB accruals. Furthermore, NHS’s accounting practice, approved by CMS, uses
segmented accrual accounting for its PRB plans.

Our prior PRB segmentation audit (A-07-08-00280, issued August 24, 2009) updated the
Medicare segment PRB assets as of January 1, 2006. We recommended that NMIC increase its
Medicare segment pension assets by $2,384,465 and, as a result, recognize $7,843,111 as the
Medicare segment PRB assets as of January 1, 2006, in its CAS exhibits.

HOW WE CONDUCTED THIS REVIEW

We reviewed NHS’s implementation of the prior audit recommendation; identification of its
Medicare segment; and update of the Medicare segment PRB assets with contributions,
permitted unfunded accruals, income, benefit payments (claims paid), participant transfers, and
administrative expenses in its CAS exhibits from January 1, 2006, to January 1, 2011.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

Appendix A contains details of our audit scope and methodology.

                                                 FINDINGS

NHS implemented our prior audit recommendation to recognize $7,843,111 as the Medicare
segment PRB assets as of January 1, 2006, in its CAS exhibits.

Regarding our second objective, NHS identified Medicare segment PRB assets of $19,009,033
as of January 1, 2011; however, we determined that the Medicare segment PRB assets were
$20,096,041. Therefore, NHS understated the Medicare segment PRB assets by $1,087,008.
NHS understated the Medicare segment PRB assets because it incorrectly identified Medicare

2
 DME Jurisdiction D comprises the States of Alaska, Arizona, Hawaii, Idaho, Iowa, Kansas, Missouri, Montana,
Nebraska, Nevada, North Dakota, Oregon, South Dakota, Utah, Washington, and Wyoming, and the territories of
American Samoa, Guam, and the Northern Mariana Islands.
3
 Medicare Parts A and B Jurisdiction 3 comprises the States of Arizona, Montana, North Dakota, South Dakota,
Utah, and Wyoming.

Noridian Healthcare Solutions, LLC, Postretirement Benefit Segmentation (A-07-13-00420)                        2
segment participants and, therefore, incorrectly identified the Medicare segment contributions
and prepayment credits. In addition, NHS lacked controls to ensure that it calculated those assets
in accordance with Federal requirements and the pension segmentation language of its Medicare
contracts when updating the Medicare segment PRB assets for January 1, 2006, through
January 1, 2011.

Appendix B presents details of NHS’s PRB plan assets from January 1, 2006, to January 1, 2011,
as determined during our audit. Table 1 summarizes the audit adjustments required to update
NHS’s Medicare segment PRB assets in accordance with Federal requirements.

                               Table 1: Summary of Audit Adjustments
                                                      Per Audit      Per NHS                     Difference
Prior Audit Recommendation                                      $7,843,111         $7,843,111            $0

Update of Medicare Segment Assets
  Contributions and prepayment credits                          10,201,356           8,833,185    1,368,171
  Claims paid                                                    (960,832)           (547,269)    (413,563)
  Investment earnings (net of expenses)                          3,012,406           2,880,006      132,400
Understatement of Medicare Segment Assets
as of January 1, 2011                                                                            $1,087,008

NORIDIAN HEALTHCARE SOLUTIONS, LLC, IMPLEMENTED
OUR PRIOR AUDIT RECOMMENDATION

NHS implemented our prior audit recommendation (A-07-08-00280) that it increase Medicare
segment PRB assets by $2,384,465 and recognize $7,843,111 of Medicare segment PRB assets
as of January 1, 2006, in its CAS exhibits.

UPDATE OF MEDICARE SEGMENT POSTRETIREMENT BENEFIT ASSETS

NHS elected to use segmented accrual accounting for its PRB plans. We used the Medicare
contracts’ pension segmentation requirements as authoritative guidance. The Medicare contracts
state that “… the pension assets allocated to each Medicare Segment shall be adjusted in
accordance with CAS 413.50(c)(7).”

For details on the Federal requirements, see Appendix C.

The following are our findings regarding the update of the Medicare segment PRB assets from
January 1, 2006, to January 1, 2011.

Contributions and Transferred Prepayment Credits Understated

NHS understated contributions and transferred prepayment credits by $1,368,171 for the
Medicare segment because NHS incorrectly calculated the assignable PRB cost on which the


Noridian Healthcare Solutions, LLC, Postretirement Benefit Segmentation (A-07-13-00420)                 3
contributions and prepayment credits were based. These incorrect calculations resulted primarily
from differences in the identification of Medicare segment participants. Therefore, NHS
understated the Medicare segment PRB assets by $1,368,171.

A comparison of NHS’s and our calculations of contributions and transferred prepayment credits
for the Medicare segment appears in Table 2.

                      Table 2: Contributions and Transferred Prepayment
                               Credits for the Medicare Segment
                                Per Audit       Per NHS      Difference
                       2006      $3,679,914      $3,661,783      $18,131
                       2007       2,983,797       2,386,464      597,333
                       2008       2,496,551       2,059,873      436,678
                       2009       1,041,094         725,065      316,029
                       2010                 0             0             0
                      Total     $10,201,356      $8,833,185   $1,368,171

Claims Paid Understated

NHS understated claims paid by $413,563 for the Medicare segment. This understatement
occurred primarily because NHS incorrectly identified payments that related to Medicare
segment participants. The understatement resulted in an overstatement of the NHS Medicare
segment PRB assets by $413,563.

A comparison of NHS’s and our calculations of claims paid for the Medicare segment appears in
Table 3.

                                     Table 3: Claims Paid for the
                                         Medicare Segment
                                     Per Audit Per NHS Difference
                             2006    ($122,184) ($166,846)       $44,662
                             2007     (148,232)    (31,215) (117,017)
                             2008     (207,898)    (72,889) (135,009)
                             2009     (233,380) (140,098)       (93,282)
                             2010     (249,138) (136,221) (112,917)
                             Total   ($960,832) ($547,269) ($413,563)

Investment Earnings (Net of Expenses) Understated

NHS understated investment earnings, less administrative expenses, by $132,400 for the
Medicare segment because it used incorrect contributions and transferred prepayment credits and
claims paid (all discussed above) to develop the Medicare segment PRB asset base. In our
calculation of the Medicare segment PRB assets as of January 1, 2011, we allocated investment
earnings (net of expenses) on the basis of the applicable CAS requirements. For details on
applicable Federal requirements, see Appendix C.

Noridian Healthcare Solutions, LLC, Postretirement Benefit Segmentation (A-07-13-00420)        4
                                        RECOMMENDATIONS

We recommend that NHS:

    •    increase its Medicare segment PRB assets as of January 1, 2011, by $1,087,008 and
         recognize $20,096,041 as the Medicare segment PRB assets and

    •    establish controls to ensure compliance with Federal regulations and the Medicare
         contracts’ pension segmentation requirements when updating the Medicare segment PRB
         assets with contributions, income, claims paid, and expenses.

                                       AUDITEE COMMENTS

In written comments on our draft report, NHS concurred with our recommendations and said that
it would increase the Medicare segment PRB assets by $1,087,008 and that it would recognize
$20,096,041 as the Medicare segment PRB assets as of January 1, 2011. NHS also said that it
would ensure that individuals are properly identified to the Medicare segments, that individuals
are properly accounted for in transfers and benefit payments, and that the Medicare segment’s
assets are updated. NHS’s comments are included in their entirety as Appendix D.




Noridian Healthcare Solutions, LLC, Postretirement Benefit Segmentation (A-07-13-00420)        5
                      APPENDIX A: AUDIT SCOPE AND METHODOLOGY

SCOPE

We reviewed NHS’s implementation of the prior audit recommendation; identification of its
Medicare segment; and update of the Medicare segment PRB assets with contributions,
permitted unfunded accruals, income, benefit payments (claims paid), participant transfers, and
administrative expenses in its CAS exhibits from January 1, 2006, to January 1, 2011.

Achieving our objectives did not require us to review NHS’s overall internal control structure.
We reviewed controls relating to the identification of the Medicare segment and the update of the
Medicare segment’s PRB assets.

We performed fieldwork at NHS’s office in Fargo, North Dakota, during April and May 2012.

METHODOLOGY

To accomplish our objectives, we took the following steps:

    •     We reviewed the portions of the FAR, CAS, and the Medicare contracts applicable to
          this audit.

    •     We reviewed the annual actuarial valuation reports prepared by NMIC’s actuarial
          consulting firm, which included the PRB plan’s assets, PRB obligations, service costs,
          contributions, claims paid, investment earnings, and administrative expenses. We used
          this information to calculate the Medicare segment PRB assets.

    •     We obtained and reviewed the PRB plan documents and Department of Labor/Internal
          Revenue Service Forms 5500 used in calculating the Medicare segment PRB assets.

    •     We interviewed NHS staff responsible for determining the methodology that NHS used
          in its identification of the Medicare segment.

    •     We reviewed NHS’s accounting records to verify the segment identification.

    •     We reviewed the prior segmentation audit performed at NMIC (A-07-08-00280) to
          determine the beginning market value of assets.

    •     We provided the CMS Office of the Actuary with the actuarial information necessary
          for it to calculate the Medicare segment PRB assets from January 1, 2006, to
          January 1, 2011.

    •     We reviewed the CMS actuaries’ methodology and calculations.

We performed this review in conjunction with the following audits and used the information
obtained during these audits during this review:

Noridian Healthcare Solutions, LLC, Postretirement Benefit Segmentation (A-07-13-00420)            6
    •   Noridian Healthcare Solutions, LLC, Claimed Some Unallowable Medicare
        Postretirement Benefit Costs for Fiscal Years 2006 Through 2010 (A-07-13-00421) and

    •   Noridian Healthcare Solutions, LLC, Understated Its Medicare Segment Allocable
        Postretirement Benefit Costs and Overstated Its Other Segment Allocable Postretirement
        Benefit Costs for Calendar Years 2006 Through 2010 (A-07-13-00422).

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.




Noridian Healthcare Solutions, LLC, Postretirement Benefit Segmentation (A-07-13-00420)        7
                 APPENDIX B: NORIDIAN HEALTHCARE SOLUTIONS, LLC,
            STATEMENT OF MARKET VALUE OF POSTRETIREMENT BENEFIT PLAN
               ASSETS FOR THE PERIOD JANUARY 1, 2006, TO JANUARY 1, 2011

                                                                                                 Medicare
               Description                        Total Company             Other Segment        Segment

     Assets January 1, 2006               1/            $15,951,129                 $8,108,018     $7,843,111

     Prepayment credits                   2/                      0                  (671,153)        671,153
     Contributions                        3/              7,500,000                 4,491,239       3,008,761
     Claims paid                          4/               (843,115)                 (720,931)       (122,184)
     Investment return                    5/              1,939,186                   939,667         999,519

     Assets January 1, 2007                            $24,547,200               $12,146,840      $12,400,360

     Prepayment credits                                           0                         0               0
     Contributions                                        8,100,000                 5,116,203       2,983,797
     Claims paid                                           (869,320)                 (721,088)       (148,232)
     Investment return                                    1,070,637                   542,642         527,995

     Assets January 1, 2008                            $32,848,517               $17,084,597      $15,763,920

     Prepayment credits                                           0                         0               0
     Contributions                                        7,000,000                 4,503,449       2,496,551
     Claims paid                                           (932,722)                 (724,824)       (207,898)
     Investment return                                   (7,323,271)               (3,907,069)     (3,416,202)

     Assets January 1, 2009                            $31,592,524               $16,956,153      $14,636,371

     Prepayment credits                                           0                   (46,470)         46,470
     Contributions                                        3,000,000                 2,005,376         994,624
     Claims paid                                         (1,084,806)                 (851,426)       (233,380)
     Investment return                                    6,418,198                 3,468,111       2,950,087

     Assets January 1, 2010                            $39,925,916               $21,531,744      $18,394,172

     Prepayment credits                                           0                         0               0
     Contributions                                                0                         0               0
     Claims paid                                         (1,099,690)                 (850,552)       (249,138)
     Investment return                                    4,234,805                 2,283,798       1,951,007

     Assets January 1, 2011                            $43,061,031               $22,964,990      $20,096,041
     Per NHS                              6/            43,061,031                24,051,998       19,009,033
     Asset variance                       7/                     0                 1,087,008       (1,087,008)


Noridian Healthcare Solutions, LLC, Postretirement Benefit Segmentation (A-07-13-00420)                     8
ENDNOTES

  1/ We determined the Medicare segment PRB assets as of January 1, 2006, based on our prior
     segmentation audit of NMIC (A-07-08-00280). The amounts shown for the Other segment represent the
     difference between the Total Company and the Medicare segment. All PRB assets are shown at market
     value.

  2/ Prepayment credits represent funds available to satisfy future funding requirements and are applied to
     future funding requirements before current-year contributions to avoid incurring unallowable interest.
     Prepayment credits are transferred to the Medicare segment as needed to cover funding requirements.

  3/ We obtained Total Company contribution amounts from the actuarial valuation reports and VEBA trust
     statements. We allocated Total Company contributions to the Medicare segment based on the ratio of
     the Medicare segment funding target divided by the Total Company funding target. Contributions in
     excess of the funding targets were treated as prepayment credits and accounted for in the Other segment
     until needed to fund PRB costs in the future. The amounts represent funds deposited in the trust.

  4/ Claims paid represents benefits reimbursements from the trust fund for claims paid. We obtained
     Medicare segment claims paid amounts from documents prepared by NHS’s actuarial consulting firms.

  5/ We obtained investment returns from the PRB actuarial valuation reports. We allocated net investment
     returns based on the ratio of the segment’s weighted average value (WAV) of assets to Total Company
     WAV of assets as required by the CAS.

  6/ We obtained the asset amount as of January 1, 2011, from NHS’s actuarial consulting firms.

  7/ The asset variance represents the difference between our calculation of the Medicare segment PRB
     assets and NHS’s calculation of the Medicare segment PRB assets.




Noridian Healthcare Solutions, LLC, Postretirement Benefit Segmentation (A-07-13-00420)                       9
                APPENDIX C: FEDERAL REQUIREMENTS RELATED TO
                   POSTRETIREMENT BENEFIT SEGMENTATION

FEDERAL REGULATIONS

FAR 31.205-6(o) requires that, to be allowable for Medicare reimbursement, PRB accrual costs
be (1) measured and assigned in accordance with generally accepted accounting principles;
(2) funded in a dedicated trust fund, such as a VEBA trust; and (3) calculated in accordance with
generally accepted actuarial principles and practices as promulgated by the Actuarial Standards
Board.

CAS 412.50(a)(4) requires that contributions in excess of the pension cost assigned to the period
be recognized as prepayment credits and accumulated at the assumed valuation interest rate until
applied to future-period costs. Prepayment credits that have not been applied to fund pension
costs are excluded from the value of assets used to compute pension costs.

CAS 413.50(c)(7) requires that the asset base be updated by contributions, permitted unfunded
accruals, income, benefit payments, and expenses. For plan years beginning after March 30,
1995, the CAS requires investment income and expenses to be allocated among segments on the
basis of the ratio of the segment’s WAV of assets to the Total Company WAV of assets.

MEDICARE CONTRACTS

The fiscal intermediary and carrier contracts identify a Medicare segment as:

        … any organizational component of the contractor, such as a division,
        department, or other similar subdivision, having a significant degree of
        responsibility and accountability for the Medicare contract/agreement, in which:

            1. The majority of the salary dollars is allocated to the Medicare
               agreement/contract; or,

            2. Less than a majority of the salary dollars are charged to the Medicare
               agreement/contract, and these salary dollars represent 40% or more of the
               total salary dollars charged to the Medicare agreement/contract.

Furthermore, the fiscal intermediary and carrier contracts state that “… the pension assets
allocated to each Medicare Segment shall be adjusted in accordance with CAS 413.50(c)(7).”




Noridian Healthcare Solutions, LLC, Postretirement Benefit Segmentation (A-07-13-00420)        10
                                  APPENDIX D: AUDITEE COMMENTS 





                                                       ~                                          

                                                      NDRIDIAN"
                                                      M utua/Insurance Company




            February 6, 2014



            Mr. Patrick J. Cogley
            Regional Inspector General for Audit Services
            Office of Audit Services, Region VII
            601 East 12th Street, Room 0429
            Kansas City, MO 64106


             Re: Report A-07-13-00420



             Dear Mr. Cogley,

            We have reviewed your draft report entitled Noridian Healthcare Solutions, LLC, Understated Its
            Medicare Segment Postretirement Benefit Assets as ofJanuary 1, 2011 and offer the following
            comments:

             Recommendations:

                 •	   Increase its Medican~ segment PRB assets as of January 1, 2011, by $1,087,008 and recognize
                      $20,096,041 as the Medicare segment PRB asset s.
                          o 	 We concu r v1ith this recommendation and will increase its Medicare segment PRB assets
                              as of Januar/ 1, 2011, by $1,087,008 and recognize $20,096,041 as t he Medicare
                              segment PRB assets.

                 • 	 Establish contro ls to ensure compliance with Federal regulations and the Medicare contracts'
                     pension segmentation requirements when updating the Medicare segment PRB assets with
                     cont ributions, income, claims paid, and expenses.
                         o 	 We concur v1ith this recommendation and will ensure that individuals are properly
                              identified to the Medicare segment, individuals are properly accounted for o n transfer
                              and benefit oayment sched ules, and Medicare segment's assets are updated .



             Sincere ly,


             ~..-/:~-
             Brian Fellner
             Enterprise Vice President and Chief Financial Officer




                                           4510 13th Avenu e South • Fargo. N orth Dakota 58121                    8-07




Noridian Healthcare Solutions, ILC, Postretirement Benefit Segmentation (A-07-13-00420)                                   11
